September 18, 2009

ROSS PHILO
EXECUTIVE VICE PRESIDENT, CHIEF INFORMATION OFFICER

SUBJECT: Audit Report – External Public Key
         Infrastructure Services – Fiscal Year 2009
         (Report Number IS-AR-09-012)

This report presents the results of our audit of the U.S. Postal Service’s external Public
Key Infrastructure (PKI) services (Project Number 09RG017IS000). The objective was
to determine whether the Postal Service effectively managed its external PKI services in
compliance with established guidance. This audit was performed at the request of
Postal Service management to ensure that the external PKI services continue to
operate at a level to become cross-certified with the U.S. Government’s Federal Bridge
Certification Authority (FBCA). See Appendix A for additional information about this
audit.

Conclusion

The Postal Service generally managed its external PKI services1 in compliance with
established guidance. However, we identified inconsistencies between Postal Service
policies, FBCA policies, and the external PKI environment.

Postal Service PKI Policies and FBCA Certificate Policy (CP)

We found inconsistencies with internal Postal Service PKI policies and between Postal
Service and FBCA policy. Postal Service staff did not perform periodic reviews to
ensure PKI policies were consistent with each other and with federal PKI policy.
Inconsistent PKI policies could delay future cross-certification between the Postal
Service and the FBCA. See Appendix B for our detailed analysis of this topic.

Postal Service External PKI Policies and PKI Environment

The Postal Service external PKI environment was not consistent with certain policies in
their Certification Practice Statements (CPSs). Postal Service PKI policies were not
periodically reviewed to ensure the environment was operating in compliance with
stated policies because of limited focus on cross-certification prior to the planned
closing of the external PKI environment. Management could delay future cross-

1
  PKI is the combination of software, encryption technologies, processes, and services that enables an organization
to secure its communications and business transactions.
External Public Key Infrastructure Services –                                 IS-AR-09-012
 Fiscal Year 2009


certification between the Postal Service and the FBCA by not operating the external PKI
environment in compliance with PKI policies. See Appendix B for our detailed analysis
of this topic.

When brought to their attention, management took action to correct the issues we
identified. While we acknowledge management’s timely action to resolve the issues, we
are making a recommendation that, if implemented, should prevent similar issues in
future years.

We recommend the Executive Vice President, Chief Information Officer, direct the
Manager, Corporate Information Security, to:

1. Establish milestones to periodically review Postal Service Public Key Infrastructure
   policies and environment in relation to Federal Bridge Certification Authority
   Certificate Policy.

Management’s Comments

Management agreed with the recommendation. On an annual basis beginning
February 2010, the PKI manager will ensure a cross-certified Certificate Authority (CA)
is compared for consistency to the FBCA’s Certificate Policies and also that the Postal
Service CPSs are compared with one another for consistency of language and
procedures. See Appendix C for management’s comments in their entirety.

Evaluation of Management’s Comments

The U.S. Postal Service Office of Inspector General (OIG) considers management’s
comments responsive to the recommendation and their corrective action should resolve
the issues identified in the report.

We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact Frances E. Cain, Director,
Information Technology, or me at (703) 248-2100.

    E-Signed by Darrell E. Benjamin, Jr
    VERIFY authenticity with ApproveIt

Darrell E. Benjamin, Jr.
Deputy Assistant Inspector General
 for Revenue and Systems

Attachments




                                                      2
                                           Restricted Information
External Public Key Infrastructure Services –                       IS-AR-09-012
 Fiscal Year 2009


cc: John T. Edgar
    Charles L. McGann, Jr
    Mark J. Stepongzi
    Joseph J. Gabris
    Bill Harris




                                                      3
                                           Restricted Information
External Public Key Infrastructure Services –                                                           IS-AR-09-012
 Fiscal Year 2009


                            APPENDIX A: ADDITIONAL INFORMATION

BACKGROUND

PKI is the combination of software, encryption technologies, processes, and services
that enables an organization to secure its communications and business transactions.
A PKI relies on the exchange of digital certificates between authenticated users and
trusted resources. A CA is a basic component of a PKI. A CA issues certificates to
users, computers, and services and manages those certificates.

To support PKI-enabled applications, an organization must design and implement the
CA hierarchy. Common roles in a CA hierarchy include a root CA, a policy CA, and an
issuing CA. The Postal Service’s external PKI2 consists of a root CA, an intermediate
CA, and two subordinate CAs in Eagan, MN.

The CP is a written document that defines how an organization issues and uses
certificates and what measures the organization uses to validate the subjects of the
certificates. The CP also includes the legal requirements an organization must follow
when using certificates that its PKI issues. The CPS is a statement of practices a CA
uses to issue, revoke, and manage certificates. Different practice statements may exist
on each CA in the hierarchy based on the type of certificates the CA issues and to
whom the CA issues them.

Homeland Security Presidential Directive 12 (HSPD-12)3 established a federal policy to
create and use a government-wide secure and reliable form of identification for federal
employees and contractors. Currently, xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
xxxxxx. However, the Federal Information Processing Standard Publication 201
requires every HSPD-12 credential the government issues to contain an external digital
certificate. As a result, the Postal Service created a CA server room xxxxxxxxxxxx
xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx that houses the
external PKI environment. This environment could authenticate and verify government-
wide identification badges issued to Postal Service employees and contractors.

The Federal Public Key Infrastructure Policy Authority (FPKIPA) is an interagency body
set up under the Chief Information Officers Council to enforce digital certificate
standards for trusted identity authentication across federal agencies and among federal
agencies and outside bodies. The FBCA is an information system that facilitates an
entity accepting certificates issued by another entity for a transaction.

In support of HSPD-12, the FPKIPA approved the Postal Service’s external PKI for
cross-certification in October 2006 at a medium hardware level. The FPKIPA requires

2
  The Postal Service refers to their policy CA as an intermediate CA and refers to their issuing CA as a subordinate
CA.
3
  Policy for a Common Identification Standard for Federal Employees and Contractors, dated August 27, 2004.



                                                          4
                                               Restricted Information
External Public Key Infrastructure Services –                                                           IS-AR-09-012
 Fiscal Year 2009


an annual compliance audit and considers a delta compliance audit4 acceptable in lieu
of a full compliance audit if no significant changes to policies, procedures, or operations
have occurred during the previous year. Although the Postal Service is no longer cross-
certified, we conducted this audit to ensure the Postal Service external PKI services
continue to operate at a level to become certified with the FBCA.

OBJECTIVE, SCOPE, AND METHODOLOGY

The objective of this audit was to determine whether the Postal Service effectively
managed its external PKI services in compliance with established guidance. We
conducted our work xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx.

As permitted by X.509 Certificate Policy for the Federal Bridge Certification Authority
(FBCA) Section 8.1 and requested by Postal Service management, we performed a
delta compliance audit covering all changes to policies, procedures, or operations that
may have occurred during the previous year.

We reviewed the following topics as required by a delta compliance audit for the
external PKI environment:

            Personnel controls
            Separation of duties
            Internal audit review frequency and scope
            Types of events recorded in physical and electronic audit logs
            Protection of physical and electronic audit data
            Physical security controls
            Backup and archive generation and storage
            Items requiring resolution from the fiscal year (FY) 2008 PKI compliance audit

We used the following Postal Service policy documents, dated May 26, 2009, for this
audit:

            USPS Public Key Infrastructure (PKI) X.509 Certificate Policy (CP), Version
             1.67
            USPS Root Certification Authority (CA) Certification Practice Statement
             (CPS), Version 1.19
            USPS Intermediate Certification Authority (CA) Certification Practice
             Statement (CPS), Version 1.19
            USPS Subordinate Certification Authority (CA) Certification Practice
             Statement (CPS), Version 1.19



4
 A delta compliance audit covers all significant changes from the previous year and also covers specific topics
described in the Objectives, Scope, and Methodology section of this report.



                                                         5
                                              Restricted Information
External Public Key Infrastructure Services –                                    IS-AR-09-012
 Fiscal Year 2009


To determine whether personnel controls were in place, we reviewed security clearance
records for PKI personnel and interviewed staff regarding proper training for PKI
personnel. Further, we verified that PKI personnel received notification of changes to
CA operations and verified that CP and CPS documents were available via the Internet.

To determine if separation of duties were effective, we reviewed the official designation
of PKI roles and responsibilities, interviewed staff regarding sensitive tasks that require
at least two individuals to complete, verified that operations manuals were available to
PKI personnel, reviewed group and user settings xxxxxxxxxxxxxxxxxxx, and reviewed
CA server configurations.

To verify PKI auditing functions, we interviewed staff regarding internal auditing
procedures, frequency, and scope; reviewed events recorded in audit logs and audit log
summary reports; and reviewed CA server audit policy settings. To verify the security of
physical and electronic audit data, we reviewed and tested PKI security settings and
verified that physical controls were in place for access to the CA room.

To validate physical security controls, we reviewed CA room access lists and tested
access controls to the room. We interviewed xxxxxxxxxxxxxxxxxxxxxxxxxx facility staff
regarding environmental controls and observed and validated controls in the physical
environment.

To verify procedures for backup and archive generation and storage, we interviewed
staff regarding backup and archival processes, validated the daily backup mechanism,
witnessed the movement of backup media for off-site rotation, and verified archive
retention periods.

To validate that management has taken corrective action on items from the FY 2008
PKI compliance audit, we verified the changes during fieldwork and reviewed the
current CP and CPS documentation versions to ensure the stated changes were in
place.

We conducted this performance audit from April through September 2009 in accordance
with generally accepted government auditing standards and included such tests of
internal controls as we considered necessary under the circumstances. Those
standards require that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and conclusions based on our
audit objective. We believe that the evidence obtained provides a reasonable basis for
our findings and conclusions based on our audit objective. We discussed our
observations and conclusions with management officials throughout the audit and on
September 4, 2009, and included their comments where appropriate.




                                                      6
                                           Restricted Information
        External Public Key Infrastructure Services –                                                 IS-AR-09-012
         Fiscal Year 2009


        PRIOR AUDIT COVERAGE

                              Report             Final Report
    Report Title              Number                 Date                            Report Results
Compliance Audit of         IS-AR-08-017      September 11, 2008      In general, we found the Postal Service was
the Postal Service’s                                                  effectively managing its PKI services in
External Public Key                                                   compliance with established guidance as stated
Infrastructure Services                                               in their CP and CPS. However, we identified 12
                                                                      instances of non-compliance between the Postal
                                                                      Service’s PKI policies and its external PKI
                                                                      environment. Of these, management corrected
                                                                      two and developed resolution plans for the
                                                                      remaining 10. Management agreed with our
                                                                      recommendation and stated they would establish
                                                                      milestones to implement resolution for the
                                                                      remaining non-compliant issues in the external
                                                                      PKI environment by December 31, 2008. During
                                                                      the FY 2009 audit, we verified that nine of the 10
                                                                      remaining instances of non-compliance were
                                                                      completed and that management was in the
                                                                      process of correcting the remaining issue.
Compliance Audit of         IS-AR-08-001         October 5, 2007       In general, we found the Postal Service’s
the Postal Service’s                                                   external PKI environment complies with their CP,
External Public Key                                                    CPS, and any applicable Memorandum of
Infrastructure Services                                                Agreement . However, the Postal Service could
                                                                       improve their external PKI environment by
                                                                       mitigating the remaining instances of its non-
                                                                       compliance with Postal Service PKI policies and
                                                                       procedures in the external PKI environment.
                                                                       Management agreed with our recommendation
                                                                       and stated they would develop a risk mitigation
                                                                       plan by October 31, 2007. We verified that
                                                                       management resolved the remaining FY 2007
                                                                       instances of non-compliance during the FY 2008
                                                                       audit.
Information for the         IS-WP-07-001         October 2, 2006      We concluded that, as of September 1, 2006, the
Federal Bridge                                                        Postal Service’s PKI operations conformed to the
Certification Authority                                               CPS documents.




                                                              7
                                                   Restricted Information
        External Public Key Infrastructure Services –                                                IS-AR-09-012
         Fiscal Year 2009



                              Report             Final Report
    Report Title              Number                 Date                            Report Results
Certificate Authority       IS-AR-06-015       September 1, 2006      We performed a follow-up audit and reviewed
Public Key                                                            items identified in a March 2006 audit performed
Infrastructure                                                        by Klynveld Peat Marwick Goerdeler LLP. We
Compliance xxxxxx                                                     determined the Postal Service had corrected
xxxxxxxxxxx                                                           most of the issues identified in the report.
xxxxxxxxxxxxxx                                                        However, management could make
xxxxxxxxxxxxxxxxxx                                                    improvements by establishing and assigning the
xxxxxxxxxxxxxxx,                                                      HSPD-12 Registration Authorities and
xxxxxxxxx                                                             Subscribers and completing the CA-PKI backup
                                                                      environment.

                                                                      Management agreed with the recommendation
                                                                      and stated that the completion date for the PKI
                                                                      backup site was September 1, 2006.




                                                              8
                                                   Restricted Information
External Public Key Infrastructure Services –                                        IS-AR-09-012
 Fiscal Year 2009


                              APPENDIX B: DETAILED ANALYSIS

Postal Service PKI Policies and FBCA CP

We found differences between the Postal Service CP, the Postal Service root CA CPS,
intermediate CA CPS, subordinate CA CPS, and the FBCA CP. Specifically we found:

       The Postal Service CP did not specify PKI in the titles of the CA Administrator,
        Operator, and Backup Operator as stated in the root, intermediate, and
        subordinate CPS.

       The Postal Service CP, root, intermediate, and subordinate CPS did not contain
        the word, “Security”, in the Section 5.3.1 title as stated in the Section 5.3.1 title in
        the FBCA CP.

       Role responsibilities of the PKI Certificate Manager, CA Administrator, and PKI
        Disaster Recovery Facility Coordinator were missing in the Postal Service CP,
        intermediate CPS, and subordinate CPS.

       xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
        xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx

Postal Service staff did not perform periodic reviews of PKI policies to ensure they were
consistent with each other and with federal PKI policy. Inconsistent PKI policies could
delay future cross-certification between the Postal Service and the FBCA.

Postal Service External PKI Policies and PKI Environment

We found some policies stated in the Postal Service CPS were not followed in the
Postal Service external PKI environment. Specifically:

       The PKI xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx were not consistent with the
        description of the file in the root, intermediate and subordinate CPS.

       All Postal Service PKI xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx from what was
        stated in the root, intermediate, and subordinate CPS.

       xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
        xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
        xxxxxxxxxxxxxxxxxxxxxxx.

Postal Service PKI policies were not periodically reviewed to ensure the environment
was operating in compliance with stated policies because of limited focus on cross-
certification prior to the planned closing of the external PKI environment. Management



                                                      9
                                           Restricted Information
External Public Key Infrastructure Services –                                      IS-AR-09-012
 Fiscal Year 2009


could delay future cross-certification between the Postal Service and the FBCA by not
operating the external PKI environment in compliance with PKI policies.

In Table 1, we summarized the results of our review of the Postal Service CP and CPS
documents. All 711 items we reviewed were compliant at the time we issued this report.

                                  Table 1 – Status of Compliance

                Status of Items Reviewed                            Total   Percentage
       Compliant with environment                                    701          98.6
       Non-compliant items corrected                                  10            1.4
       Non-compliant items outstanding                                 0            0.0
       Total items reviewed                                          711         100.0




                                                     10
                                           Restricted Information
External Public Key Infrastructure Services –                       IS-AR-09-012
 Fiscal Year 2009


                        APPENDIX C: MANAGEMENT’S COMMENTS




                                                     11
                                           Restricted Information
External Public Key Infrastructure Services –                       IS-AR-09-012
 Fiscal Year 2009




                                                     12
                                           Restricted Information
External Public Key Infrastructure Services –                              IS-AR-09-012
 Fiscal Year 2009


           APPENDIX D: COMPLIANCE LETTER TO FEDERAL PUBLIC KEY
                     INFRASTRUCTURE POLICY AUTHORITY

The audit letter of compliance and background information required for the FPKIPA
begins on the next page.




                                                     13
                                           Restricted Information
September 18, 2009

ROSS PHILO
EXECUTIVE VICE PRESIDENT, CHIEF INFORMATION OFFICER

SUBJECT:     External Public Key Infrastructure Services – Fiscal Year 2009

We performed an audit to determine if the U.S. Postal Service effectively managed its
external Public Key Infrastructure (PKI) services in compliance with established
guidance. This audit was performed to ensure that the external PKI services continue
to operate at a level to become certified with the U.S. Government’s Federal Bridge
Certification Authority.

Audit Methodology

We conducted this audit from April through September 2009, in accordance with
generally accepted government auditing standards. As permitted by X.509 Certificate
Policy for the Federal Bridge Certification Authority (FBCA) Section 8.1, we performed a
delta compliance audit covering all changes to policies, procedures, or operations that
may have occurred during the previous year. We reviewed the following topics as
required by a delta compliance audit for the external PKI environment:

      Personnel controls
      Separation of duties
      Internal audit review frequency and scope
      Types of events recorded in physical and electronic audit logs
      Protection of physical and electronic audit data
      Physical security controls
      Backup and archive generation and storage
      Items requiring resolution from the FY 2008 PKI compliance audit

Documents and Criteria

We used the following Postal Service policy documentation, dated May 26, 2009, as
criteria during our audit:

      USPS Public Key Infrastructure (PKI) X.509 Certificate Policy(CP), Version 1.67
      USPS Root Certification Authority (CA) Certification Practice Statement (CPS),
       Version 1.19.
      USPS Intermediate Certification Authority (CA) Certification Practice Statement
       (CPS), Version 1.19.
      USPS Subordinate Certification Authority (CA) Certification Practice Statement
       (CPS), Version 1.19.

Evaluation of Effective Management of Postal Service External PKI Environment
in Compliance with Established Guidance

As of September 15, 2009, the Postal Service effectively managed its external PKI
environment in compliance with established guidance. We reviewed 711 external PKI
components documented in the criteria listed previously. Although we found 10
instances of non-compliance, we considered them insignificant to the overall external
PKI environment.

The attachment to this letter contains the identity and qualifications of the U.S. Postal
Service Office of Inspector General (OIG) personnel who conducted this audit.


   E-Signed by Darrell E. Benjamin, Jr
   VERIFY authenticity with ApproveIt

Darrell E. Benjamin, Jr.
Deputy Assistant Inspector General
 for Revenue and Systems

Attachment

cc: John T. Edgar
    Charles L. McGann, Jr
    Mark J. Stepongzi
    Joseph J. Gabris
    Bill Harris




                                                    2
                                         Restricted Information
 ATTACHMENT: BACKGROUND FOR FPKIPA AUDIT LETTER OF COMPLIANCE

Identity of the Auditors:

      United States Postal Service
      Office of Inspector General
      1735 N. Lynn Street
      Arlington, VA 22209-2020

      Darrell E. Benjamin, Jr
      Frances M. Cain
      Michael Blaszczak
      Ruth Smolinski
      Kimberly Jones
      Maria Gomez

Competence of the Auditors:

      Darrell Benjamin, CPA, CIA, 20 years of audit experience
      Frances Cain, CISA, 17 years of audit experience
      Michael Blaszczak, CISA, CIPP, 13 years of audit experience
      Ruth Smolinski, CISA, 3 years of audit experience
      Kimberly Jones, 9 years of audit experience
      Maria Gomez, CISA, CIA, 10 years of audit experience

Experience of Auditors Auditing PKI Systems:

      The OIG has been involved in the Postal Service’s PKI effort since August 2005.
      The OIG has performed several audits of the PKI environment.

Relationship of the Auditor to the U.S. Postal Service:

      The OIG was authorized by law in 1996. The Inspector General, who is
      independent of Postal Service management, is appointed by and reports directly
      to the nine Presidentially-appointed Governors of the Postal Service. The
      primary purpose of the OIG is to prevent, detect, and report fraud, waste and
      program abuse and promote efficiency in the operations of the Postal Service.




                                            3
                                 Restricted Information
